No. 20-1381
IN THE

*upreme Court of tije liutteb 6tatai
MATTHEW Fox, PROSECUTING ATTORNEY, MERCER
COUNTY, OHIO; JEFF GREY, SHERRIFF, MERCER COUNTY,
OHIO; AND J.K., CRIME VICTIM,
Petitioners,
v.

CHARLES SUMMERS,
Respondent.

On Petition For Writ Of Certiorari
To The Ohio Supreme Court
REPLY IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that the Reply
Brief in Support of Certiorari in Fox v. Summers, No. 20-1381, complies with the
word limitations, as it contains 2,979 words.
I declare under penalty of perjury that the foregoing is true and correct.

Shay Dvoretzky
Date: May 18, 2021

